                          June 30, 2000




MEMORANDUM

TO:        Frank J. Young, Director, USAID/Ghana

FROM:      Henry Barrett, RIG/Dakar

SUBJECT:   Audit of USAID/Ghana’s Performance Monitoring for
           Indicators Appearing in the FY 2001 Results Review
           and Resource Request, Audit Report No. 7-641-00-007-
           P


This memorandum is our final report on the subject audit. We
have considered your comments to the draft report and have
included them as Appendix II.       The report contains five
recommendations. We are unable to consider that a management
decision has been reached with respect to recommendation No.
3. Please respond to the report within 30 days indicating any
actions planned or taken to make a management decision to
address recommendation No. 3. Based upon your comments on the
draft report, USAID/Ghana has made a management decision to
address recommendation Nos. 1, 2, 4 and 5. In accordance with
USAID guidance, M/MPI/MIC will be responsible for determining
when final action has occurred for these recommendations.

I appreciate the cooperation and courtesies extended to my
staff by USAID/Ghana staff during the audit.

Background
The Government Performance and Results Act of 1993 (Results
Act) was passed to improve federal program effectiveness and
public accountability by promoting a new focus on results,
service quality, and customer satisfaction.  The Results Act
should also improve federal managers’ service delivery by
requiring that they plan for meeting program
objectives and by providing them with information about
program results and service quality.    Congressional decision
making should also be improved by receipt of more objective
information on the status of efforts to achieve statutory
objectives and on the relative effectiveness and efficiency of
federal programs and spending.

In 1995, the U.S. Agency for International Development (USAID)
developed a new reporting system that included the Results
Review and Resource Request (R4) report.     This is the most
significant performance report that the operating units send
to their respective bureaus. USAID’s Automated Directive
System (ADS) requires that the information in the R4s shall be
used, as appropriate, for internal analyses, responding to
external inquiries, and USAID-wide results reporting.

A key component of the R4 reporting system is the performance
monitoring system.   USAID’s performance monitoring system is
an organized process for systematically monitoring the
progress of a program, process, or activity towards its
objectives over time. USAID’s performance monitoring systems
consist of:    (1) establishing performance indicators, (2)
preparing   performance    monitoring   plans,   (3)  setting
performance baselines, (4) collecting performance data, and
(5) assessing data quality.

As of September 1998, USAID/Ghana reported unliquidated
obligations of $50.4 million for its four strategic objective
areas: economic growth, education, improved family health, and
public   policy  decisions.     The   current   audit examines
performance data reported in USAID/Ghana’s FY 2001 R4 for the
first three of these four strategic objectives.

Audit Objectives
This audit is the first of a worldwide series of audits that
were requested by USAID’s Office of Policy and Program
Coordination (PPC) and are being carried out by USAID’s Office
of Inspector General (OIG). The audit objective and the scope
and methodology for this series of audits were developed in
coordination with PPC.    The present audit was performed by
OIG’s regional office in Dakar, Senegal, and answered the
following audit objective:

    Did USAID/Ghana monitor performance in accordance with
    Automated Directive System E203.5.5 and other relevant



                             2
    guidance as demonstrated by indicators appearing in its
    Results Review and Resource Request report for FY 2001?

Appendix I contains a discussion of the scope and methodology
for the audit.

Audit Findings
Did USAID/Ghana monitor performance in accordance with
Automated Directive System E203.5.5 and other relevant
guidance as demonstrated by indicators appearing in its
Results Review and Resource Request report for FY 2001?

USAID/Ghana generally monitored performance in accordance with
Automated Directive System (ADS) E203.5.5 and other relevant
guidance as demonstrated by indicators appearing in its
Results Review and Resource Request (R4) report for FY 2001.
However, we determined that there were certain exceptions in
the three strategic objectives that we examined.         These
exceptions concerned (1) the incompleteness of performance
monitoring plans, (2) the lack of data quality assessments,
and (3) in a few cases, certain shortcomings in R4 reporting.

Nevertheless, in monitoring the performance of its programs,
processes, and activities towards respective objectives,
USAID/Ghana had generally established the basic controls of a
performance monitoring system as required by USAID guidance.
In all cases, for the 10 indicators (under three strategic
indicators) which we examined, we found that the Mission had
initially established baselines to identify the point used for
comparison   when  measuring    progress  toward  a   specific
objectives.    Also, the Mission had prepared performance
monitoring plans for each of the three strategic objectives
that we reviewed.      In addition, USAID/Ghana had devoted
considerable staff effort to performance monitoring, having
established monitoring and evaluation positions in three of
its four strategic objective teams. And finally, the Mission
issued its R4 report, which generally reported data in
accordance with USAID guidance.

However, we found certain areas in which the performance
monitoring system could be improved.   Performance monitoring
plans were in some cases not as complete as specified by ADS
guidance, data quality assessments were not always done, and
R4 reporting standards in a few cases were not met.     These
areas for improvement are discussed below and are summarized
in Appendix III.


                             3
Performance Monitoring Plans
Were Not Always Complete

For the performance monitoring plans prepared for each of the
three strategic objectives, we found that the plans were not
as complete as required by USAID guidance for six of the ten
indicators examined.   Specifically, the plans did not always
meet USAID standards that require: (1) precise indicator
definition, (2) data source identification, (3) description of
the data collection method, and (4) specification of data
collection frequency and schedule. The principal cause for
these shortcomings was a lack of Mission-specific procedures
for ensuring that performance monitoring plans were prepared
and maintained in accordance with USAID guidance. Without
complete plans, the Mission did not have assurance that it was
maintaining the controls that are essential to the operation
of a credible and useful performance-based management system.

     Recommendation No 1:      We recommend that USAID/Ghana
     update its current performance monitoring plans to
     precisely define indicators, identify all data sources,
     describe data collection methods, and specify data
     collection frequency and schedules.

     Recommendation No 2:      We recommend that USAID/Ghana
     establish   procedures   to    ensure   that   performance
     monitoring   plans  are    prepared   and  maintained   in
     accordance with USAID guidance.

ADS 203, states that performance monitoring plans shall be
prepared   for   each   operating   unit’s    strategic   plan.
Information included in a performance monitoring plan shall
enable comparable performance data to be collected over time,
even in the event of staff turnover, and shall clearly
articulate   expectations    in   terms    of    schedule   and
responsibility.   Specifically, performance monitoring plans
shall provide a detailed definition of the performance
indicators that will be tracked; specify the source, method of
collection and schedule of collection for all required data;
and assign responsibility for collection to a specific office,
team or individual. In summary, performance monitoring plans
function as a critical tool for managing and documenting the
data collection process—and for ensuring that comparable data
are collected from one reporting period to the next.




                               4
USAID/Ghana had a separate performance monitoring plan for
each of its four strategic objective areas.     For the three
performance monitoring plans we examined (one for each of the
three strategic objectives covered by this audit), we found
that the plans were not as complete as required by USAID
guidance for six of the ten indicators examined (See Appendix
III).   Specifically, the plans did not always meet standards
in the areas of (1) indicator definition, (2) data source
identification, (3) data collection method, and (4) data
collection frequency and schedule.

Under the standard for “indicator definition,” we found four
indicators out of ten that did not meet the criterion.     For
example, Strategic Objective No. 1 indicator “Value of
selected nontraditional exports” consisted of measuring the
changes in value of nontraditional export commodities, such as
pineapples and avocados. However, the plan did not list what
specific commodities should be included. The plan should have
identified which commodities were to be included in the
computation of the indicator to ensure that data are
comparable from year to year and the baseline does not change.

For the “data source identification” standard, we determined
that there were two indicators out of ten for which the data
source was not adequately identified.        For example, the
Strategic Objective No. 1 indicator, “Number of financial
institutions providing credit to USAID/Ghana assisted micro-
enterprises. . .,” had a source description that was vague as
to both entity and source document.     Specifically, the plan
simply referred to such things as contractor reports,
financial institution records, and micro-enterprise records.
It did not specifically identify each entity and the type of
documents that needed to be consulted, an omission which could
lead to a lack of comparability in the data from year to year.

Under the “data collection method” standard, there were two
indicators out of ten that did not conform to the standard.
For example, with Strategic Objective No. 2 indicator
“Percentage of communities active in school decision-making in
partnership schools,” the plan did not provide sufficient
detail on the data collection method so that it could be
consistently applied in subsequent years. In other words, no
details were given on who collects the data, how many people
are to be interviewed, how many subgroups there are of
interviewees, who these subgroups are made up of, or details
about how interviewers are to be trained and debriefed. This
lack of detail could lead to different methodologies being


                             5
employed from year   to   year,       which   could   negatively   affect
comparability.

There were two indicators out of ten for which performance
monitoring plans specified only minimal information on data
collection frequency and schedules.     For example, for the
Strategic Objective No. 2 indicator “Percentage of teachers
using pupil-focused instructional practices. . .,” the plan
did not include a description of the schedule to collect data
or indicate the frequency of collection. While such schedules
were described in other project documents, the lack of such
information in the performance monitoring plan made it
difficult for managers to know what schedules were in effect
at a given time or what changes may have taken place in such
scheduling as the project progressed.      Frequency of data
collection can have a very real effect on results, and such
information should be included in performance monitoring
plans.

The principal cause for performance monitoring plans not being
complete in the above-mentioned four areas was a lack of
mission-specific procedures for ensuring that performance
monitoring plans were prepared and maintained in accordance
with USAID guidance.    USAID/Ghana had no separate guidance
describing how ADS procedures should be implemented. We noted
that in one case, where a consultant was hired to prepare the
plan for one of the strategic objectives, the consultant’s
contract did not specify what guidance he needed to follow.
Also, we observed that even when performance monitoring plans
were developed, they were not always updated in order to
reflect changes in data collection methodology or changes in
the definition of the indicator itself. The ADS provides that
performance monitoring plans be completed for each operating
unit’s strategic plan, and that they be periodically updated
to reflect changes that may take place as a program evolves.

More detailed and complete performance monitoring plans would
improve the planning, management, and documentation of data
collection and make the performance monitoring plans more
useful as management tools for USAID/Ghana.   For example, in
the schools using Community School Improvement Programs, the
indicator was not precise enough so as to ensure that the
meaning of the indicator would be clear.              In 1998
participating schools simply needed to have an Improvement
Program to be counted; however, in 1999, the schools needed to
have, not only a Program, but also two out of four of the
Program components in some state of implementation in order to


                                  6
be counted. Therefore, the data were not strictly comparable
from one year to the next. We are not stating that indicators
should not be changed when conditions warrant it. However, if
changes are made to an indicator that affect comparability,
then the baseline will need to be reestablished to ensure
comparability of data from year to year.

The    performance  monitoring   plan   contributes    to   the
effectiveness of the performance monitoring system by ensuring
that comparable data will be collected on a regular and timely
basis.   It also provides the Mission adequate assurance that
it was maintaining the controls that are essential to the
operation    of  a  credible   and   useful   performance-based
management system. Without such plans, results reporting may
be disrupted or compromised by staff turnover, data may not be
comparable from one period to the next, and the mission does
not have a detailed roadmap to manage its performance
monitoring process.      Performance monitoring plans bring
together the details of the performance monitoring process
that would otherwise only be found in a myriad of contractor,
grantee, host government and mission documents.

Data Quality Assessments Were
Not Done for all Indicators

For seven out of the ten indicators examined, we determined
that data quality assessments were not done in accordance with
USAID guidance that requires data assessments when indicators
are initially established and at least every three years
thereafter. This occurred primarily because neither Mission
personnel nor monitoring and evaluation contractors were aware
of the data quality assessment requirements—nor was USAID
guidance sufficiently precise as to exactly how assessments
were to be done.   Without required data quality assessments,
USAID/Ghana did not have an adequate level of assurance that
data quality met validity, timeliness, and reliability
standards for results-oriented management, the lack of which
could have an adverse effect upon decision making.

     Recommendation No. 3:    We recommend that USAID/Ghana
     complete and/or document data quality assessments on
     those indicators that were reported as not having had a
     required assessment.

     Recommendation No. 4:    We recommend that USAID/Ghana
     establish   procedures to  ensure  that  data  quality
     assessments are completed and documented at required


                                7
     intervals for indicators in its Results Review and
     Resource Requests in accordance with USAID and federal
     guidance.

Results-oriented management decisions require valid, current,
and reliable information, and the benefits of this approach
depend substantially on the quality of the performance
information. Data quality assessments provide management with
reasonable assurance that data quality is sufficient for sound
management decisions.    ADS 203 states that operating units
shall, at regular intervals, critically assess the data they
are using to monitor performance to insure they are of
reasonable quality and accurately reflect the process or
phenomenon they are being used to measure. Data quality will
be assessed as part of the process of establishing performance
indicators and choosing data collection sources and methods.
The guidance goes on to say that reassessments will be done as
necessary, but at intervals of no greater than three years;
and   that   whenever   possible,   reasonable   standards  of
statistical reliability and validity should be applied.

The   guidance   does   not  specify   what   these   “reasonable
standards” are, but in the context of this audit, we
considered that, at the very minimum, data quality assessments
needed to be documented. In other words, we did not consider
it sufficient to say that a data quality assessment was done
without any documentation to that effect.       GAO’s “Standards
for Internal Controls in the Federal Government” provides
internal control standards for federal agencies covering both
program and financial management areas. The standards include
a   requirement    that  internal   control   systems   and   all
transactions    and   other  significant    events   be   clearly
documented and that documentation be readily available for
examination. Likewise, if a data quality assessment were not
performed, we would also expect to find documentation of the
reasons for not doing so (e.g., an exceptionally strong
control environment, and indicator that was simple and not
susceptible to assessment, etc.)

Furthermore, in this audit we applied different tests for the
adequacy of a data quality assessment based on the types of
data sources—secondary, partner, and primary.      We defined
secondary sources as entities outside of Mission management
control, such as government ministries, the United Nations, or
other international organizations.      Partner sources were
defined as USAID contractors and grant recipients.     Primary
sources were considered to be the Mission itself and any


                               8
independent entities that the Mission engaged to collect data.
In general, when the Mission used secondary or partner data,
we assumed that, in doing a data quality assessment, the
Mission would have to place greater reliance on the control
procedures of the entity that collected the data—and that it
would be sufficient for the Mission to assess those controls.
In addition, in the case of partner data, we also assumed that
a data quality assessment might simply take the form of the
Mission undertaking periodic sampling and review of such data
to ensure completeness, accuracy and consistency.        (This
approach to reviewing the adequacy of data quality assessments
was developed in cooperation with USAID’s Office of Policy and
Program Coordination.)

In general, we concluded that data quality assessments were
not being done. For seven out of the ten indicators examined,
we determined that data quality assessments were not done—or,
if done, were not documented. Several examples follow.

§   The Strategic Objective No. 1 indicator “Number of
    financial institutions providing credit to USAID/Ghana
    assisted micro-enterprises. . .” was established in 1998,
    but no data quality assessments were done at that time or
    later. In fact, our review found that data reported in the
    FY 2001 R4 for this indicator was not correct—a situation
    that likely would have been discovered had an assessment
    been done as required (see next section for discussion).

§   Under Strategic Objective No. 2, data for the indicator
    “Number of schools and communities within partnership
    districts utilizing Community School Improvement Plans” was
    collected by the technical assistance contractor. We found
    no evidence that data quality assessments were done, or if
    done, were not documented.      (Strategic objective team
    members did indicate that data quality was considered when
    indicators were established and that appropriate controls
    were designed.)

§   In Strategic Objective No. 3, we found that, for indicators
    with multiple sources of data, assessments were done for
    some of the sources but not for others.    For example, the
    indicator “Condom sales” relied on data from the Ministry
    of Health (MOH), the Ghana Social Marketing Foundation
    (GSMF), and Planned Parenthood Association of Ghana (PPAG).
    Although there was no assessment for data from GSMF, there
    was an assessment for data from the MOH done at selected
    distribution points. An assessment for PPAG was completed


                               9
  in 1996 that focused on “program evaluation”—but not on
  data validity and reliability.

Mission officials stated that data quality assessments were
not done for a number of reasons.       In some cases, neither
Mission   personnel   nor   the  monitoring    and  evaluation
contractors   were   aware    of   data    quality  assessment
requirements—and, therefore, simply did not do them. In other
cases, as in Strategic Objective No. 3, various “program
assessments” were made from 1996 through 1999.          These,
however, were not specifically designed to address data
quality and generally referred to data quality in a peripheral
manner; therefore, they did not always qualify as data quality
assessments.

Another cause, per Mission staff members, was the lack of a
record-keeping system to document assessments.    Some mission
personnel stated that they had done data assessment-type
activities during the period in question, but they did not
have a file or available documentation to demonstrate what had
been done, what the results were, and what conclusions were
made.    This absence of internal control procedures for
maintaining documentation contributed to our inability to
verify that assessments had in fact been done. We cannot be
sure that the reputed assessment activities were sufficient;
however, even if sufficient, the lack of documentation remains
a problem. Even if a data quality assessment were done but is
not documented, the information that would be contained
therein is not available to Mission staff and cannot provide a
guide to the current assessment. It is similarly unavailable
as a guide to how data management could be improved.

A results-oriented management approach relies on field
managers to use performance information to make their
decisions.   Specifically, quality performance indicators and
data will help (1) ensure that USAID program and budget
decisions are as well informed as practically possible, (2)
support   efficient   use   of   USAID   resources,    (3)   meet
requirements of federal legislation, and (4) address the
information needs of USAID’s internal and external users,
which includes senior management, OMB, and Congress. However,
sound   decisions   require   valid,   current,    and   reliable
information, and the benefits of this results-oriented
approach   depend   substantially   on   the   quality   of   the
performance information available.        Without data quality
assessments, USAID/Ghana did not have reasonable assurance
that data quality met validity, timeliness, and reliability


                               10
standards for results-oriented management, the lack of which
could negatively affect decision making.

We continue to believe that data quality assessments are a key
control for ensuring that quality data are reported and that
assessments should be performed and documented. Nevertheless,
we do recognize that the ADS guidance is limited and not as
specific as it should be.      USAID’s Office of Policy and
Program Coordination also recognizes this shortcoming and is
currently at work on clarifying the requirement based on the
preliminary findings of this audit.

Data Reported in the Subject R4
Did Not Always Meet Reporting Standards

Although USAID/Ghana generally reported performance data in
compliance with applicable USAID guidance, in four of the ten
indicators that we examined there were shortcomings: (1) in
two cases, reported data did not agree with supporting
documentation, (2) in one case baseline data were not
comparable to data being reported for the following year, and
(3) in three cases, data limitations were not disclosed. As a
result, data quality did not always meet the requirements of
USAID and federal guidance. The principal cause for this was
the lack of an adequate internal control system to ensure that
sufficient   data  quality   was   maintained  and   reported.
Consequently, USAID/Ghana did not have, in some cases, data
with the quality necessary for a results-oriented management
approach.

    Recommendation No. 5:     We recommend that USAID/Ghana
    revise its procedures to ensure that data reported in the
    Mission’s Results Review and Resource Request reports are
    supported by adequate documentation, have comparable
    baselines,   and  disclose   any   data   limitations  in
    accordance with USAID and federal guidance.

In reviewing data reported in the FY 2001 R4, we performed
three basic tests:       (1) we traced data to supporting
documentation (and did recalculations when necessary); (2) we
verified that performance data were comparable to baseline
data; and (3) we checked to see that known data limitations,
if any, were disclosed in the R4 report.     The criteria for
these three areas are discussed in the next three paragraphs.

We used GAO’s “Standards for Internal Controls in the Federal
Government” as criteria for required data documentation. The


                              11
standards cover both program and financial management areas,
and require that internal control systems and all transactions
and other significant events be clearly documented and that
documentation be readily available for examination.

In addition to having supporting documentation, data must also
be comparable. ADS 203 states that performance baselines will
reflect, as nearly as possible, the value of each performance
indicator at the commencement of USAID-supported activities.
Subsequently, comparable data for the indicator are to be
collected so that changes in the value of the indicator
reflect USAID interventions, and not just changes in the
indicator or the collection methodology.

As for disclosure of known data limitations, USAID issued
guidance in December 1998 for preparing the FY 2001 R4, which
encouraged full use of the comment section of each data table
in the R4.    Possible information for this section included
whether there were any “significant data limitations” (or
problems with the data) and what their implications would be
for   measuring   performance  results.     Subsequent  USAID
requirements issued in 1999 for FY 2002 R4 reports made
disclosure of data limitations mandatory.

Overall, USAID/Ghana generally did a good job in reporting
performance results in its R4 report with regard to the
criteria discussed in the previous three paragraphs (See
Appendix III, columns 8 through 10 which summarizes our
findings).     Nevertheless, we noted three areas where
improvements could be made in ensuring that data are reported
in compliance with applicable USAID and federal guidance.
USAID/Ghana should ensure that (1) R4 data agree to source
documentation, (2) R4 data being reported are comparable to
baseline data for the indicator, and (3) known data
limitations, if any, are disclosed.    Specifically, we found
for three of the ten indicators examined, there were (1) two
cases in which data did not agree with source documentation,
(2) one case where an indicator did not report data comparable
to baseline data, and (3) three cases where there were
undisclosed data limitations.

Concerning documentation, for the Strategic Objective No. 1
indicator, “Number of financial institutions providing credit
to USAID/Ghana-assisted micro-enterprises. . .,” we could not
reconcile the amount reported in the R4 to source documents.
Although the number of institutions reported was two, the
source   documents  supported   only   one  institution,  the


                             12
Agricultural Development Bank. Also, the amount of credit and
pre-financing leveraged of $435,000 (1 billion Cedis) reported
in the R4 did not reconcile to source documents. We verified
that source documents showed that this amount was understated
by approximately $33,496 (77,040,000 Cedis), applying the
exchange rate used at the time of R4 preparation. While the
amount of dollar discrepancy is only about seven percent, it
is surprising that the absolute number of institutions
reported was not correct—and that error had not been noted
during the normal course of project monitoring.

Regarding comparability of baseline data, under the Strategic
Objective No. 2 indicator “Percentage of teachers using pupil
focused instructional practices in Partnership Schools,” the
preliminary data for 1999 was not comparable to the baseline
data reported for 1998.    First, the partner had changed the
data collection instrument between the baseline year of 1998
and 1999.     Secondly, the methodology for calculating the
percentage of teachers was also about to change.         These
changes pose a potential problem for future R4 reports. For
1999, the partner stated that it was considering changing the
methodology to one based on obtaining a score of “three or
four” in four out of seven items.     The original methodology
was based on a score of “two or more” in at least four of
eight items. The changes in the collection instrument and the
scoring could lead to a loss in comparability between the
baseline year and following years.    We are not stating that
indicators should not be changed when conditions warrant it.
However, if an indicator is redefined or changed in any manner
that affects comparability, then the baseline will need to be
reestablished to ensure that the data remain comparable from
year to year.

With respect to data limitations, we noted two concerns
regarding the Strategic Objective No. 3 indicator “Couple
years of protection” (CYP). For one of the sources for CYP,
the Ministry of Health (MOH), two assessments were done in
1996 on the contraceptive program.      One assessment, which
looked at selected western region distribution points, found
that MOH distribution points were using too many forms,
resulting in employee confusion.      As a consequence, data
produced at the distribution points were inaccurately recorded
and subsequently passed up to the regional and central levels.

The other assessment performed in 1996 (by the Ghana
Statistical Service), although appearing to be representative
of the MOH as a whole, did not directly address data quality


                             13
or accuracy.   However, the report did provide statistics on
the number of MOH distribution points that were reporting
statistics.    It stated that family planning statistical
reports were sent by only 90 percent of the units examined.

These two assessments indicated that there was a data quality
problem.   Although one of the assessments led to technical
assistance being provided to the MOH, the known data
limitation with MOH data should have been disclosed.

An additional issue with this indicator concerned the
conversion factors used to calculate the CYP from the raw
distribution figures.      The conversion factors were not
consistent with recommended conversion factors published by
USAID, nor were they disclosed.      For example, while the
recommended conversion factor for condoms is 120 per CYP,
USAID/Ghana used a factor of 100.      Because these factors
differ from standard factors and are an integral part of the
indicator calculation, they should have been disclosed and an
explanation provided.   Without disclosure, one would assume
that CYP data from Ghana are comparable to CYP data reported
from other USAID-assisted countries.

There are various causes for the reporting problems noted
above.   The principal cause for data not agreeing to source
documentation was a weakness in the control system to ensure
that supporting documentation was collected and maintained.
When trying to verify that documentation existed for the R4
data, in some cases, we had to consult several sources in
different locations.   While there were no problems in eight
out of the ten cases we reviewed, having a standardized record
keeping system for each indicator which would consolidate
appropriate source documents for each year, would improve the
chances of not inadvertently reporting incorrect data. Also,
quality assurance procedures requiring that data be carefully
cross-checked against these source documents would further
ensure that transcription errors are not introduced into the
R4 report. Procedures are also necessary to ensure that newly
reported data remain comparable to baselines, and that known
data limitations are disclosed.

A Mission partner stated that an additional cause for the one
Strategic Objective No. 2 indicator problem was inadequate
performance on the part of a subcontractor hired to collect
data, but whose data could not be relied upon, thereby
requiring that an estimate be used for the baseline figure.
It is laudable that the suspect data were not included in the


                             14
R4 report.   Nevertheless, comparability questions do arise,
and at the very least, the inherent limitations of the
estimated baseline data should have been disclosed.

As   previously   mentioned,  a   results-oriented   management
approach relies on field managers to make their decisions
based upon performance information.      Specifically, quality
performance indicators and data will help (1) ensure that
USAID program and budget decisions are based upon the best
information   that   is  practically  possible,   (2)   support
efficient use of USAID resources, (3) meet requirements of
federal legislation, and (4) address the information needs of
USAID’s internal and external users, which includes senior
management, OMB, and Congress. The benefits of this results-
oriented approach depend substantially on the quality of the
performance information available.

As discussed above, USAID/Ghana did not have, in some cases,
data with the quality that met standards for results-oriented
management.   While we do not believe the problems we have
noted were sufficient to negatively impact decision making, we
nevertheless believe that certain modest changes in Mission
record keeping are in order to ensure that documentation
exists and is maintained to support data reported for each
performance indicator. This would help ensure that errors are
not inadvertently introduced into R4 reporting.    With regard
to comparability of newly reported data with baselines, it may
be enough to ensure that completed performance monitoring
plans are prepared which would provide detailed indicator
definitions and careful descriptions of data collection
methodology so as to ensure comparability of data from one
year to the next. As for limitations on data, establishing a
file of supporting documentation for each indicator—along with
any information indicating that data problems or limitations
exist—would be a good way of ensuring that when data are
reported, any known limitations will not be overlooked.

Management Comments and Our Evaluation

Although    USAID/Ghana    generally   concurred   with  the
recommendations and many of the findings, it did not concur
with several of the reported exceptions and subsequent
conclusions.    USAID/Ghana’s comments are included in their
entirety in Appendix II.

USAID/Ghana questioned why we did not comment on the
additional component of the performance monitoring system that


                              15
concerns analyzing and using monitoring data for improved
program performance, and suggested that we include a section
in the report regarding this.     Although we did verify that
performance data were used in some way by mission personnel,
we did not specifically examine how the data were analyzed and
used for improving program performance, since this was outside
the scope of our audit.    Therefore, we are not prepared to
comment on this aspect of the monitoring system.

Concerning the finding that performance monitoring plans were
not always complete, USAID/Ghana did not concur with two of
the exceptions noted.    Concerning the first exception, the
Mission stated that it did not concur with the report’s
conclusion that, under the Community School Improvement Plan
indicator, the data were not strictly comparable from one year
to the next.    The Mission stated that managing for results
requires adjustments and that, building upon lessons learned,
it was agreed that modifying the indicator definition would
increase rather than decrease data rigor.          The Mission
concluded that it reserves the option of modifying its
performance monitoring plan when and how it deems most
appropriate. We do not disagree that an indicator should be
modified when conditions warrant it.    However, the indicator
in question was originally not very precisely defined, and
with the subsequent changes, the baseline was no longer
comparable. If USAID/Ghana determines that it is necessary to
change   an  indicator   in   a  manner   that   affects  data
comparability, the baseline will also need to be reestablished
to preserve data comparability.

For the second exception under this finding, USAID/Ghana did
not concur with the report’s conclusion that specific
commodities were not included in the performance monitoring
plan definition of the indicator for “Value of Selected
Nontraditional Exports.” The Mission stated that the specific
commodities in question were listed in a specific spreadsheet,
which the Mission stated formed part of the performance
monitoring plan.   We reviewed the spreadsheet in question as
well as numerous other source documents.         However, the
spreadsheet was not part of the performance monitoring plan
that was presented to us; but rather, it was provided as a
source document to support the plan.      The plan as it was
presented to us did not contain the individual commodities
that are needed to ensure that a data comparability is
maintained from year to year.




                             16
USAID/Ghana concurred with Recommendation Nos. 1 and 2 except
for the term “correct” used in Recommendation No. 1.      The
Mission believes that the use of this term implies that there
are serious flaws in the performance monitoring plan.      We
agree with USAID/Ghana and have changed the recommendation
terminology accordingly. Therefore a management decision has
been reached on recommendation Nos. 1 and 2.

Regarding the finding that data quality assessments were not
done for all indicators, USAID/Ghana did not specifically
concur with two reported exceptions.       The first of these
concerned the lack of a data assessment for the indicator
“Number of financial institutions providing credit . . ..”
The   Mission  stated   that  TechnoServe,    the organization
implementing this activity, has a well-structured and highly
developed monitoring and evaluation system which included data
quality assessments, in addition to assessment activities by
Mission personnel. We specifically spoke to a representative
from TechnoServe and were told that no data quality assessment
had been done for this indicator. Additionally, no one from
the USAID/Ghana provided any evidence that a data assessment
had been done.    In the absence of any documentation to the
contrary, as well as statements from TechnoServe personnel, we
are forced to conclude that no assessment was done for this
indicator.

The second exception that USAID/Ghana did not concur with
involves the indicator “Increased tourist visits . . ..” The
Mission stated that two documents demonstrate that substantive
effort was invested in assuring data quality for this
indicator.     The documents do indicate that there was
considerable analysis and thought invested in selecting the
indicator;   but   neither  document  demonstrates   that  the
indicator data were actually assessed.    The e-mail mentioned
by the Mission describes how the revenue was calculated from
the tourist figures received from the parks (which is only one
aspect of the data); however, nowhere does it discuss
assessing the quality and validity of the actual tourist
figures upon which the revenue figures were calculated.     We
also interviewed both Mission personnel and contractor
personnel involved in performance monitoring who told us that
the accuracy and the quality of the actual tourist figures
were never assessed. We also asked the Mission to furnish us
with documentation to support the fact that the figures were
assessed, however the Mission did not respond with any
documentation.     In the absence of any documentation, in
conjunction   with   statements   by  Mission   personnel  and


                             17
contractors, we continue to maintain that no assessment was
done on the data for this indicator.

USAID/Ghana stated that it concurred with both Recommendation
Nos. 3 and 4 under this finding, adding that it had already
complied with Recommendation No. 3.      However, as of the
publication date of this report, we have not received any
documentation to support the fact that a management decision
had been made or final action had been taken. We, therefore,
consider Recommendation No. 3 to be open and without a
management decision while a management decision has been
reached on recommendation No. 4.

With respect to the finding that data reported in the subject
R4 did not always meet reporting standards, USAID/Ghana did
not concur with two of the reported exceptions. The first of
these concerned the statement that the number reported in the
R4 for the indicator “Number of financial institutions
providing credit . . .” could not be reconciled to source
documents. The subject R4 reported two institutions, while we
reported that source documents only supported the existence of
one   institution.     USAID/Ghana   stated  that    a  second
institution, the Sinapi Aba Trust, also provided credit and
should have been included in the indicator.    USAID/Ghana did
mention this financial institution to us, but when asked to
provide documentation to support the furnished credit, the
Mission did not respond with any documentation.        In the
absence of proper documentation required by federal guidance,
we do not consider this a reportable institution under this
indicator.

The second exception under this finding that USAID/Ghana did
not concur with concerned significant data limitations that
were not disclosed for the “Couple years of protection” (CYP)
indicator. The Mission stated that the one field visit report
that was referred to was not representative of the country as
a whole.   Furthermore, with respect to the other assessment,
which stated that only 90 percent of the distribution points
were reporting statistics, the mission claimed that this
percentage is quite good for the area and said that it was
confident that the CYP data are comparable.       The Mission
concluded that CYP serves as a solid indicator of services
provided during the year.

We do not disagree that CYP serves in principal as a solid
indicator of services provided.   However, we do question the
Mission’s contention that the data are reliable, and therefore


                             18
comparable, based on the fact that the Mission did not present
us with any documentation to support this conclusion.      The
Mission provided no other assessment to support this claim
except for the two aforementioned assessments, one of which
indicated defective data in the western region, and the other
of which showed that only 90 percent of the distribution
points reported statistics throughout the entire Ministry.
Although the Mission claims that the one data assessment from
the western region that described defective data was not
representative, it should be noted that USAID/Ghana believed
this assessment was significant enough to use it as the basis
for   providing   the   Ministry of   Health   with  technical
assistance.     Considering the above reported deficiencies,
combined with the lack any assessment to the contrary, the
data limitations should have been disclosed in the R4.

USAID/Ghana concurred with Recommendation No. 5 except for the
term “establish,” which it felt implied that there were no
existing procedures for ensuring that R4 data were reported in
accordance with guidance. We agree that the Mission did have
an existing control system and associated procedures and have
changed   the  recommendation   accordingly.      Therefore   a
management decision has been reached on recommendation No. 5.




                              19
                                                   Appendix I
                                                  Page 1 of 3



                      SCOPE AND
                     METHODOLOGY

Scope
We audited USAID/Ghana’s controls over performance monitoring
in accordance with generally accepted government auditing
standards.   The audit also assessed USAID/Ghana’s internal
controls governing the quality of data reported in its FY 2001
R4. Specifically, the audit addressed whether: (1) baselines
were established, (2) adequate performance monitoring plans
were completed, (3) data quality assessments were done, and
(4) data reported in the subject R4 complied with USAID and
federal guidance.

The   audit  examined  ten   out   of  eleven   indicators  in
USAID/Ghana’s Strategic Objective Nos. 1, 2 and 3. We did not
examine Strategic Objective No. 4 due to its relative
insignificant amount of available funding compared to the
Mission’s entire portfolio.    The three strategic objectives
that we examined had reported unliquidated obligations of $48
million out of a total portfolio of $50.4 million unliquidated
obligations as of September 30 1998.    We did not verify the
reliability of the Mission’s computer generated data; nor did
we project the results of our test to items that we did not
test.

The fieldwork was conducted at USAID/Ghana in Accra, Ghana,
during the period January 31, 2000, to February 25, 2000.

Methodology
We began the fieldwork with a study and evaluation of the
Mission’s internal control system as it related to performance
monitoring for Strategic Objective Nos. 1, 2, and 3.      This
included an analysis of Mission guidance, the procedures
followed for developing the performance indicators, and
procedures for data collection and reporting.         We then
analyzed the Mission’s internal control system and compared
our results to the requirements found in USAID and relevant
federal guidance.    The basic controls that we tested were
whether the Mission:
                                                       Appendix I
                                                       Page 2 of 3
  §   Established indicator   baseline data either in        the
      strategic plan or a     subsequent Results Review      and
      Resource Request;

  §   Prepared performance monitoring plans that contained a
      detailed definition of the indicator that set forth
      precisely all technical elements of the indicator
      statement;

  §   Prepared performance monitoring plans that identified all
      data sources;

  §   Prepared performance monitoring plans that described the
      data collection method in sufficient detail to enable
      consistent use in subsequent years;

  §   Prepared performance monitoring plans that       specified
      frequency and schedule of data collection;

  §   Prepared performance monitoring plans     that   assigned
      responsibility for collecting data;

  §   Completed an assessment of data quality for the
      indicators either at the establishment of the indicator
      or at an interval no greater than three years;

  §   Reported data that was adequately supported by source
      documents;

  §   Reported baseline data in the R4 that were comparable to
      the data reported for the indicator in subsequent years;
      and

  §   Disclosed known data limitations (if any) in the comments
      section of the R4 report.

Because the Mission’s performance monitoring control system
was generally functioning as intended, we assessed control
risk as medium.

From the Mission’s strategic plan, we developed a sample of
ten indicators in three strategic objectives from the
universe.   These three strategic objectives represented the
principal activities in the Mission’s portfolio.  We did not
include Strategic Objective No. 4 due to its relatively
insignificant level of funding compared to the other three
                                                      Appendix I
                                                      Page 3 of 3
objectives. Within the three objectives, we selected for our
detailed audit review ten indicators out of a total of eleven.
                                                                                                                                                     Appendix III


                                                           Summary Schedule
                                         USAID/Ghana’s Performance Monitoring Controls For
                            Indicators Appearing in the FY 2001 Results Review and Resource Request Report

                                                                                 In the Performance Monitoring Plan…                                           In the R4…
                                                    1.            2.          3.           4.           5.           6.               7.           8.       9.            10.
                                                    Baseline      Indicator   Data         Data         Data         Responsibility   Data         Data     Comparable Data
                   Indicator                        Established   Precisely   Sources      Collection   Collection   Assigned         Quality      Agrees   Baseline      Limitations
                                                                  Defined     Identified Method         Frequency                     Assessment   to                     Disclosed
                                                                                           Described    &                             Done         Source
                                                                                                        Schedule
Value of selected nontraditional exports               Yes          No          Yes         Yes           Yes            Yes             Yes       Yes         Yes           n/a∗
Increased visits and income to central region          Yes          Yes         Yes         Yes           Yes            Yes             No        Yes         Yes           n/a∗
project sites
Number of financial institutions providing credit      Yes          Yes         No           No           Yes            Yes             No         No         Yes           n/a∗
to USAID/Ghana assisted micro enterprises &
the amount of credit & pre-financing leveraged
Percentage of teachers using pupil-focused             Yes          Yes         Yes         Yes            No            Yes             No         No         No             No
instructional practices in partnership schools
Percentage of communities active in school             Yes          No          Yes          No           Yes            Yes             No        Yes         Yes           n/a∗
decision-making in partnership schools
Number of schools and communities within               Yes          No          Yes         Yes            No            Yes             No        Yes         Yes           n/a∗
partnership districts utilizing Community School
Improvement Plans
Contraceptive prevalence rate (CPR)                    Yes          Yes         Yes         Yes           Yes            Yes             Yes       Yes         Yes           n/a∗
Couple years of protection (CYP)                       Yes          No          No          Yes           Yes            Yes          Yes/No#      Yes         Yes            No
Condom sales                                           Yes          Yes         Yes         Yes           Yes            Yes          Yes/No#      Yes         Yes            No
Full immunization of children                          Yes          Yes         Yes         Yes           Yes            Yes             Yes       Yes         Yes           n/a∗




   ∗
    No known data limitations
   #
    These are multi-source indicators. For CYP, one out of the four sources had a data quality assessment. For Condom sales, one out of three had a data
   quality assessment.
